No. 20-112
IN THE

Supreme Court of the United States
————
SHERRY HERNANDEZ,
v.

Petitioner,

PNMAC MORTGAGE OPPORTUNITY
FUND INVESTORS, LLC, et al.,
Respondents.
————
On Petition for a Writ of Certiorari
to the California Court of Appeal,
Second Appellate District, Division Five
————
BRIEF IN OPPOSITION
————
CHERYL S. CHANG
JESSICA A. MCELROY
Counsel of Record
BLANK ROME LLP
2029 Century Park East
6th Floor
Los Angeles, CA 90067
(424) 239-3400
Chang@BlankRome.com
JMcElroy@BlankRome.com
Counsel for Respondents
PNMAC Mortgage
Opportunity Fund Investors,
LLC and PennyMac Loan
Services, LLC
October 2, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
1. Whether, under California law, the California
Court of Appeal, Second Appellate District, Division 5
(the “Court of Appeal”) properly affirmed the trial
court’s entry of judgment following its sustaining of
Respondents PNMAC Mortgage Opportunity Fund
Investors, LLC (“PNMAC”) and PennyMac Loan
Services, LLC’s (“PennyMac,” collectively with PNMAC,
“Respondents”) demurrer to Petitioner Sherry
Hernandez’s (“Petitioner”) third amended complaint
(“TAC”) asserting one cause of action for wrongful
foreclosure without leave to amend, on the grounds
that the TAC failed to allege facts sufficient to state a
cause of action for Petitioner’s sole remaining cause of
action for wrongful foreclosure.
The Court of Appeal, in an unpublished, nonprecedential decision, held that the TAC presented no
valid wrongful foreclosure theory that the subject
assignment of deed of trust was void and that Petitioner had not identified any facts justifying leave to
file a fourth amended pleading.
2. Whether there is jurisdiction in this Court under
28 U.S.C. § 1257(a), where the Court of Appeal decided
the case exclusively under state law, was not asked to
resolve any question of federal law, and until Petitioner improperly reframed the issue in her petition
(“Petition”) as one pertaining to due process concerns
under the Fourteenth Amendment, no issue of federal
law was ever presented to the California trial or appellate courts, or to the California Supreme Court (which
denied discretionary review).
3. Whether Petitioner’s assertion of jurisdiction in
this Court under 28 U.S.C. § 1257(a) is frivolous, and
whether damages or costs should be assessed against
(i)

ii
Petitioner and her counsel under Supreme Court Rule
42.2.

iii
PARTIES TO THE PROCEEDING BELOW
The case caption contains the names of all parties
who were parties in the California Court of Appeal,
with the exception of defendant MTC Financial, Inc.
dba Trustee Corps (“Trustee Corps”). The Court of
Appeal affirmed the trial court’s judgment of dismissal
as to Trustee Corps prior to the filing of the Third
Amended Complaint. The State of California is not
and never has been a party to this litigation.

iv
RULE 29.6 CORPORATE
DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules, Respondents state that Private National Mortgage Acceptance Company, LLC is the parent company of
PennyMac Loan Services, LLC and there are no
publicly held companies that own 10% of PennyMac
Loan Services, LLC. There are no parent corporations
or publicly held companies owning 10% or more of
PNMAC Mortgage Opportunity Fund Investors, LLC.

v
RELATED CASES


Hernandez v. PNMAC Mortgage Opportunity
Investors, et al., No. S259570, Supreme Court of
California. Order denying petition for review
issued February 29, 2020.



Hernandez v. PNMAC Mortgage Opportunity
Investors, et al., No. B287048, California Court of
Appeal, Second Appellate District, Division 5.
Order affirming ruling sustaining demurrer to
third amended complaint without leave to
amend November 12, 2019.



Hernandez v. PNMAC Mortgage Opportunity
Investors, et al., No. YC068794, Superior Court of
California, County of Los Angeles. Judgment in
favor of Respondents following order sustaining
demurrer to third amended complaint without
leave to amend entered on December 4, 2017.



Hernandez v. PNMAC Mortgage Opportunity
Investors, et al., No. B258583, California Court of
Appeal, Second Appellate District, Division 5.
Order reversing ruling sustaining demurrer to
the Second Amended Complaint without leave to
amend in part, as to wrongful foreclosure cause
of action only, on June 27, 2016.



Hernandez v. PNMAC Mortgage Opportunity
Investors, et al., No. S232151, Supreme Court of
California. Order granting petition for review,
with directions to the California Court of Appeal,
Second Appellate District, Division 5 to
reconsider its ruling in light of Yvanova v. New
Century Mortgage Corporation, 62 Cal.4th 919
(2016), on March 30, 2016.



vi
Hernandez v. PNMAC Mortgage Opportunity
Investors, et al., No. B258583, California Court of
Appeal, Second Appellate District, Division 5.
Order affirming ruling sustaining demurrer to
Second Amended Complaint without leave to
amend on December 18, 2015.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDING BELOW .....

iii

RULE 29.6 CORPORATE DISCLOSURE
STATEMENT ...................................................

iv

RELATED CASES ...............................................

v

TABLE OF AUTHORITIES ................................

viii

JURISDICTION ..................................................

1

STATEMENT OF THE CASE ............................

1

REASONS TO DENY THE PETITION FOR
WRIT OF CERTIOTARI ..................................

5

CONCLUSION ....................................................

11

APPENDIX
APPENDIX A: ORDER, Supreme Court of
California (February 19, 2020) ........................

1a

APPENDIX B: OPINION, California Court
of Appeals for the Second Appellate District
(November 12, 2019) ........................................

2a

APPENDIX C: OPINION, California Superior
Court for the County of Los Angeles
(November 12, 2019) ........................................

19a

APPENDIX D: OPINION, California Court
of Appeals for the Second Appellate District
(June 27, 2016) .................................................

25a

(vii)

viii
TABLE OF AUTHORITIES
CASES

Page(s)

Adams v. Robertson,
520 U.S. 83 (1997) ..................................... 9, 10
Cardinale v. Louisiana,
394 U.S. 437 (1969) ...................................

8

Fox Film Corp. v. Muller,
296 U.S. 207 (1935) ...................................

7

Howell v. Mississippi,
543 U.S. 440 (2005) ...................................

10

Webb v. Webb,
451 U.S. 493 (1981) ...................................

8, 9

Yvanova v. New Century Mortgage Corp.,
62 Cal. 4th 919 (2016) ...............................

3, 5

CONSTITUTION
U.S. Const. amend. XIV ...............................

8

STATUTES
28 U.S.C. § 1257(a) ................................. 1, 5, 7, 10
RULES
Sup. Ct. R. 10 ................................................

9

Sup. Ct. R. 14.1(g)(i) ..................................... 4, 10
Sup. Ct. R. 15.2 .............................................

1

Sup. Ct. R. 42.2 ............................................. 10, 11
OTHER AUTHORITIES
Former Supreme Court Rule 17, 5 U.S.
(1 Cranch) xviii (1803) ..............................

10

JURISDICTION
As detailed below, there is no basis for jurisdiction
under 28 U.S.C. § 1257(a) because the state court
judgment at issue was based entirely on state law, and
no federal claim was ever presented to the state courts.
STATEMENT OF THE CASE
A full statement of the factual and procedural
history of the case is set forth in the decision of the
Court of Appeal and is not included here for purposes
of judicial economy. See Respondents’ Appendix
(“Resp. App.”) at 3a-10a.1
Pursuant to their obligation under Supreme Court
Rule 15.2 to address any misstatement of fact or law
in the Petition, Respondents identify the following
misleading statements or omissions:


1

Contrary to the statements at pages 3-4 of
the Petition describing the completed nonjudicial foreclosure sale of the subject property
(“Property”), the sale was not wrongful, was
not based on a void assignment of deed of
trust, and Petitioner was in default at the time
of the foreclosure sale. See Resp. App. at 2a-5a.
Furthermore, Respondents did not create a
“system to accomplish the wrongful foreclosure
by concealing the identity of owner [sic] of the
claimed debt.” Pet., 4. Rather, the Property was
sold pursuant to the power of sale contained

Respondents cite to their own Appendix because Petitioner’s
Appendix is unnumbered and it appears that the documents
within Petitioner’s Appendix were retyped or reproduced by
Petitioner in some manner, rather than being exact reproductions of the documents as entered by the courts below. To confirm
the integrity of the cited documents, all citations herein are to
Respondents’ Appendix.

2
within the subject deed of trust following
Petitioner’s default on the loan.


The Petition wrongly asserts that Petitioner
raised a federal claim in the courts below,
including the California Supreme Court, and
that fraud was an issue on appeal. The Court of
Appeal considered whether the trial court
correctly sustained Respondents’ demurrer to
Petitioner’s sole remaining cause of action for
wrongful foreclosure without leave to amend, as
pled in the TAC. Resp. App. at 3a.



The Petition wrongly characterizes the background and history of the Mortgage Electronic
Registration System (“MERS”). Petition, at 5-7.
For example, Petitioner inaccurately asserts that
MERS “supplanted the existing real property
statutes, in every state” and that the MERS
creates documents “for the sole purpose of foreclosing on real property.” Id. at 6.



At pages 7 through 9, the Petition inaccurately
describes the nonjudicial foreclosure of the Property, including Petitioner’s history of payments
on the subject loan, that PNMAC did not have a
beneficial interest in the subject loan at the time
the notice of default was recorded, and that the
United States Bankruptcy Court forced Respondents to create an allonge to the note. The Court
of Appeal accurately detailed the history of the
nonjudicial foreclosure proceedings pertaining
to the Property in its ruling. See Resp. App. at
3a-5a.



At pages 9 through 10, Petitioner continues her
inaccurate description of the nonjudicial foreclosure sale of the Property, including suggesting

3
that the notary who witnessed the assignment of
the deed of trust to PNMAC did so fraudulently,
and claiming that the Property was sold without
notice to Petitioner. Regarding the notary, the
Court of Appeal explained that, even if the
notary pled guilty in 2014 to fraudulently
notarizing documents, “these allegations have
no bearing on what happened here.” Resp. App.
at 15a. The Court of Appeal further confirmed
that on January 18, 2012, PennyMac recorded
an assignment of the deed of trust and MTC
Financial, Inc. dba Trustee Corps (“Trustee
Corps”) recorded the notice of default on July 10,
2012, Trustee Corps served and recorded a notice
of trustee’s sale, and Trustee Corps conducted
the foreclosure sale of the Property on April 16,
2013. Id. at 3a-5a.


Petitioner’s misleading statements continue at
pages 10 through 13 of the Petition. At page 11,
Petitioner mischaracterizes the holding in
Yvanova v. New Century Mortgage Corp., 62 Cal.
4th 919, 924 (2016) (Yvanova), wherein the
Supreme Court of California held “only that a
borrower who has suffered a nonjudicial foreclosure does not lack standing to sue for wrongful
foreclosure based on an allegedly void assignment merely because he or she was in default on
the loan and was not a party to the challenged
assignment.”



At page 12, Petitioner’s summary of what the
exhibits attached to the TAC allegedly show does
not comport with reality; the exhibits do not
show that the assignment of deed of trust was
void, that the loan was not in default at the time
of assignment, that PNMAC did not hold a

4
beneficial interest in the loan, that the trustee’s
sale was void, or that Respondents “committed
fraud on the court.” Further on page 12, the trial
court did not violate the “law of the case doctrine”
by granting Respondents’ request for judicial
notice filed in support of their demurrer to the
TAC, nor did it violate the “express instructions
of the Court of Appeal in doing so,” and, again,
Respondents did not commit fraud on the court.


At pages 12 to 13, it is unclear exactly what
Petitioner is claiming, but to the extent she is
claiming that the loan was transferred to an
entity other than PNMAC, Petitioner is wrong.

Furthermore, and crucial to the jurisdictional and
sanctions issues, Petitioner’s Statement of the Case
willfully violates Supreme Court Rule 14.1(g)(i). The
Statement of the Case fails to include a:
specification of the stage in the proceedings,
both in the court of first instance and in the
appellate courts, when the federal questions
sought to be reviewed were raised; the
method or manner of raising them and the
way in which they were passed on by those
courts; . . . specific reference to the places in
the record where the matter appears . . . ,
so as to show that the federal question
was timely and properly raised and that this
Court has jurisdiction to review the judgment
on a writ of certiorari.
These required matters are not set forth in the
Petition’s Statement of the Case because they do not
exist, and there is no basis for this Court’s jurisdiction.

5
There is no specification of when the purported “due
process” question was presented for decision, because
it was not.
There is no specification of how the federal question
was presented or how it was resolved by the state
courts, because it was not.
There is no specific reference to the record to show
the federal question was timely and properly raised
below, because it was not.
REASONS TO DENY THE PETITION
FOR WRIT OF CERTIORARI
1. The judgment of the Court of Appeal was based
entirely on California substantive law. Consequently,
there is no basis for jurisdiction in this court under 18
U.S.C. § 1257(a).
The trial court issued a judgment in favor of Respondents after Respondents’ demurrer to the TAC
was sustained without leave to amend as to Petitioner’s sole remaining cause of action for wrongful
foreclosure, a claim arising under state law. The trial
court’s ruling on the demurrer confirmed that the TAC
failed to allege sufficient facts to address either of the
two areas identified by the Court of Appeal in its
unpublished June 27, 2016 opinion in this action, in
which it reversed the trial court’s order sustaining
Respondents’ demurrer to the Second Amended Complaint without leave to amend following Yvanova and
remanded the case back to the trial court to permit
Petitioner a final opportunity to plead a wrongful
foreclosure claim against Respondents. Resp. App.
at 19a-23a. Specifically, the trial court confirmed that
Petitioner had failed to allege: (1) that the individual
who ostensibly executed the assignment of the subject
deed of trust had no authority to act on MERS’s behalf

6
or, if he did, he did not in fact execute the assignment,
and (2) sufficient facts that would come within one of
the recognized exceptions to California’s tender rule.
Id.
On appeal from the adverse judgment following the
demurrer ruling, Petitioner challenged the judgment
solely on California state law grounds. Resp. App.
at 10a-18a. In relevant part, Petitioner asked the
Court of Appeal to reverse on the basis that she had
adequately pled a void assignment of deed of trust
pursuant to California law. Resp. App. at 12a-16a.
Petitioner further argued that she had properly pled
an exception to California’s tender rule, which requires a party attacking a completed nonjudicial
foreclosure sale to first tender the amount due on the
loan. Resp. App. at 12a.
Responding to Petitioner’s contentions, Respondents countered that the trial court properly ruled that
Petitioner’s wrongful foreclosure cause of action failed
because the TAC failed to allege that the sale of the
Property was illegal, fraudulent, or willfully oppressive pursuant to California law and that Petitioner
lacked standing to assert her claim because she failed
to tender the amount due under the loan, yet sought
to unwind the completed sale. Resp. App. at 9a-10a.
The Court of Appeal, in an unpublished opinion,
agreed with Respondents on all fronts. Resp. App.
at 2a-18a. Applying California law, it held that “the
operative complaint presents no valid theory that the
Assignment is void and plaintiff has not presented
sufficient justification for getting a fifth bite at the
apple.” Resp. App. at 10a-11a. Regarding MERS and
executor of the assignment, the Court of Appeal
further confirmed that “[n]o facts are alleged that
would suggest the capacities in which [the executor of

7
the assignment of the deed of trust] signed the other
documents are somehow inconsistent with his authority to simultaneously act for MERS in connection
with the Assignment.” Resp. App. at 14a. Accordingly, the Court of Appeal affirmed the judgment for
Respondents. Resp. App. at 18a.
Petitioner sought discretionary review in the California Supreme Court. Resp. App. at 1a. Again,
no federal issue was raised. Id. Rather, Petitioner
attempted to distort the issues of the case into a
challenge to MERS’s authority to assign deeds of trust
in general, even though such argument was not the
focus of Petitioner’s argument to the Court of Appeal.
For the first time, Petitioner asked the California
Supreme Court to consider the validity of the MERS
system as a whole. The California Supreme Court
denied review without substantive comment. Id.
Under Section 1257(a) and this Court’s case law it is
clear that there is no basis for this Court’s jurisdiction
unless the final judgment of the state court is based
on a dispositive question of federal law. Certiorari
jurisdiction is not available when the state court
judgment is based entirely on state law. Indeed, there
is no jurisdiction even where there has been a decision
on the basis of both federal and state law, if the state
law determination is an independent and adequate
ground for the judgment. See, e.g., Fox Film Corp. v.
Muller, 296 U.S. 207, 210 (1935).
Petitioner cannot maintain a good faith argument
that the judgment below was based on any question of
federal law. Moreover, even if there were some federal
issue lurking somewhere in the record, it could not
conceivably have affected the judgment. As discussed
above, the Court of Appeal squarely decided this
case on the basis of California common law: the failure

8
to allege that a nonjudicial foreclosure sale was
illegal, wrongful, or willfully oppressive. This readily
qualifies as independent and adequate state grounds.
Indeed, Petitioner argued, in seeking California
Supreme Court review, that this holding was wrong,
as a matter of California law, but never argued that it
was inadequate, if correct, to support the remedy of
complete reversal.
The Petition should be denied for want of
jurisdiction.
2. Even if the Petition could somehow be interpreted to present a federal issue capable of supporting
certiorari jurisdiction, the Petition must be denied
because Petitioner did not present the purported due
process argument to the state courts below. With
few exceptions not applicable here, this Court will
not consider questions raised for the first time in
this Court. Cardinale v. Louisiana, 394 U.S. 437, 438
(1969) (“It was very early established that the Court
will not decide federal constitutional issues raised
here for the first time on review of state court
decisions.”); see also Webb v. Webb, 451 U.S. 493, 501
(1981) (“there should be no doubt from the record
that a claim under a federal statute or the Federal
Constitution was presented in the state courts and
that those courts were apprised of the nature or
substance of the federal claim at the time and in the
manner required by the state law”).
Petitioner did not present any federal issue to the
Court of Appeal. Indeed, there is no mention of
the words “due process,” “Fourteenth Amendment,”
“Constitution,” or “federal question” any where in
Petitioner’s Opening Brief filed in the Court of Appeal
on or about December 5, 2018 or Petitioner’s Petition

9
for Review filed in the Supreme Court of the State of
California on or about December 22, 2019.
To the extent Petitioner is attempting to create a
federal question based on her purported challenge to
the MERS system, this argument was not made to the
Court of Appeal and, in any event, does not constitute
an important federal question. See Resp. App. at 2a18a. The Court of Appeal did not issue any ruling
pertaining to the MERS system itself because Petitioner never presented this argument to the Court
of Appeal. Id. While Petitioner did suggest that
the originating lender could not assign the deed of
trust following its dissolution, the Court of Appeal
confirmed that MERS would still have the power to
execute the assignment in such a circumstance. See
Resp. App. at 13a. In short, Petitioner did not present
the purported due process or MERS arguments to the
state courts below and the California state courts did
not decide an important federal question in any way,
let alone in a way that would conflict with the decision
of a state court of last resort or of a United States court
of appeal. See Supreme Court Rule 10.
The presentment rule serves the important interest
of comity, because “ ‘it would be unseemly in our dual
system of government’ to disturb the finality of state
judgments on a federal ground that the state court did
not have occasion to consider.” Adams v. Robertson,
520 U.S. 83, 90 (1997) (citing Webb, 451 U.S. at 500).
Accordingly, the rule affords states courts the opportunity to consider the constitutionality of proposed
changes that could potentially obviate any challenges
to state court action in federal court. Id. The presentment rule is also in the best interests of judicial
economy, as it “not only avoids unnecessary adjudication in this Court by allowing state courts to resolve

10
issues on state-law grounds, but also assists us in [the
Court’s] deliberations by promoting the creation of an
adequate factual and legal record.” Id. at 90-91.
The Court has “almost unfailingly refused to consider any federal-law challenge to a state-court decision unless the federal claim ‘was either addressed by
or properly presented to the state court that rendered
the decision.’” Howell v. Mississippi, 543 U.S. 440, 443
(2005) (quoting Adams, 520 U.S. at 86.)
Accordingly, there is no basis for exercise of this
Court’s jurisdiction in this case. The Petition should
be denied.
3. This Court has long recognized that frivolous
efforts to invoke nonexistent jurisdiction may warrant
sanctions. See Former Supreme Court Rule 17, 5 U.S.
(1 Cranch) xviii (1803). This authority is currently
found in Supreme Court Rule 42.2, authorizing the
award of “just damages” and single or double costs for
the filing of a frivolous petition.
As outlined above, there is no good faith basis to
invoke this Court’s jurisdiction under 28 U.S.C.
§ 1257(a), the independent and adequate state ground
doctrine, and the presentation requirement. Despite
the lack of any jurisdictional basis, Petitioner filed the
Petition, which obliged Respondents to oppose it, and
apprise the Court of Petitioner’s numerous inaccurate
statements. The opposition was necessary given that
Petitioner willfully violated the requirements of Rule
14.1(g)(i), in an attempt to mask the jurisdictional
deficiency. Given the clarity of the California state
law bases for the Court of Appeal’s judgment, the lack
of any presentation of a federal claim to the state
courts, and Petitioner’s willful ignorance of the well
settled case law that bars jurisdiction under these

11
circumstances, Respondents respectfully request that
this Court award just damages or costs to Respondents
based on Petitioner’s filing of a frivolous petition.
CONCLUSION
For the foregoing reasons, the writ of certiorari
should be denied, and the Court should enter an order
allowing Respondents to recover damages, or single, or
double costs under Rule 42.2 against Petitioner and
her counsel.
Respectfully submitted,
CHERYL S. CHANG
JESSICA A. MCELROY
Counsel of Record
BLANK ROME LLP
2029 Century Park East
6th Floor
Los Angeles, CA 90067
(424) 239-3400
Chang@BlankRome.com
JMcElroy@BlankRome.com
Counsel for Respondents
PNMAC Mortgage
Opportunity Fund Investors,
LLC and PennyMac Loan
Services, LLC
October 2, 2020

APPENDIX

1a
APPENDIX A
IN THE SUPREME COURT OF CALIFORNIA
En Banc
[Filed: February 19, 2020]
————
S259570
————
SHERRY HERNANDEZ,
Plaintiff and Appellant,
v.
PNMAC MORTGAGE OPPORTUNITY
INVESTORS, LLC et al.,
Defendants and Respondents.
————
Court of Appeal, Second Appellate District,
Division Five – No. B287048
————
The request to appear as counsel pro hac vice is
granted.
The petition for review is denied.
The request for an order directing publication of the
opinion is denied.
CANTIL-SAKAUYE
Chief Justice

2a
APPENDIX B
NOT TO BE PUBLISHED IN THE
OFFICIAL REPORTS
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA SECOND APPELLATE DISTRICT
DIVISION FIVE
[Filed: November 12, 2019]
————
B287048
(Los Angeles County Super. Ct. No. YC068794)
————
SHERRY HERNANDEZ,
Plaintiff and Appellant,
v.
PNMAC MORTGAGE OPPORTUNITY
INVESTORS, LLC et al.,
Defendants and Respondents.
————
APPEAL from a judgment of the Superior Court of
Los Angeles County, Ramona G. See, Judge. Affirmed.
Hernandez Law Group, Rhonda Hernandez; Imperiale
Law Group, James T. Imperiale, for Plaintiff and
Appellant.
Blank Rome, Cheryl S. Chang and Jessica A.
McElroy, for Defendants and Respondents.
Plaintiff and appellant Sherry Hernandez (plaintiff)
sued the parties who foreclosed on her residence, including defendants and respondents PNMAC Opportunity
Fund Investors, LLC (PNMAC) and PennyMac Loan
Services. In a prior appeal, we held the trial court was

3a
right to sustain a demurrer to all of plaintiff’s causes
of action as alleged in a second amended complaint,
but wrong not to give plaintiff further leave to amend
her wrongful foreclosure claim so as to try to state a
valid cause of action following the change in law worked
by Yvanova v. New Century Mortgage Corporation
(2016) 62 Cal.4th 919 (Yvanova). Plaintiff later filed a
third amended complaint presenting a restyled wrongful foreclosure claim and, at the same time, proposed
to add various other causes of action and additional
defendants. Defendants again demurred, and the trial
court found plaintiff still had not sufficiently alleged a
viable wrongful foreclosure theory and could not allege
additional causes of action or add defendants when we
remanded solely to permit amendment of the wrongful
foreclosure claim. We now consider whether the court
was correct to sustain defendants’ most recent demurrer
without further leave to amend.
I. BACKGROUND
A. The Pertinent Transactions, As Described by
the Operative Complaint and Shown in
Documents Subject to Judicial Notice
Plaintiff’s husband, Alfredo Hernandez, borrowed
$752,500 from Your-Best-Rate Financial, LLC (YourBest-Rate), evidenced by his promissory note in that
amount (the Note). The Note was secured by a deed of
trust on the family’s Rancho Palos Verdes home (the
Property). Plaintiff, her husband, and her daughter
Elizabeth all signed the deed of trust, which includes
a provision authorizing sale of the Property in the
event of a default on the payments due under the Note.
The trust deed also includes a provision by which the
deed’s signatories acknowledge Mortgage Electronic

4a
Registration Systems, Inc.1 (MERS)—the named beneficiary under the trust deed and the holder of legal title
to the interests granted by the deed’s signatories—had
the right, as nominee for the lender and its successors
and assigns, to exercise any or all of the interests
granted by the signatories, including “the right to foreclose and sell the Property.”
The original lender, Your-Best-Rate, assigned the
Note to CitiMortgage, Inc. on the same day it was
executed via a first allonge to the Note. A second allonge
to the Note indicates “CitiMortgage, Inc. [b]y and through
its Attorney in Fact PNMAC Capital Management
LLC” endorsed the note in blank, which would operate
to assign its interest to whoever actually holds the Note.
On January 18, 2012, PennyMac Loan Services
recorded an assignment of the deed of trust on the
Property (the Assignment). By its terms, the Assignment
indicates MERS assigned “all beneficial interest” under
the trust deed to PNMAC. On its face, the Assignment
states it was executed on January 5, 2012, by Todd
Graves (Graves), acting in his capacity as an assistant
secretary of MERS. The Assignment also bears an
attestation by Corina Castillo, a Los Angeles County
Notary Public, that Graves personally appeared before
her and proved by satisfactory evidence that he
executed the Assignment in his “authorized capacity.”
1

“MERS was formed by a consortium of residential mortgage
lenders and investors to streamline the transfer of mortgage loans
and thereby facilitate their securitization. A member lender may
name MERS as mortgagee on a loan the member originates or
owns; MERS acts solely as the lender’s ‘nominee,’ having legal
title but no beneficial interest in the loan. When a loan is assigned
to another MERS member, MERS can execute the transfer by
amending its electronic database. When the loan is assigned to a
nonmember, MERS executes the assignment and ends its involvement.” (Yvanova, supra, 62 Cal.4th at p. 931, fn. 7.)

5a
The same day the Assignment was recorded, MTC
Financial, Inc. dba Trustee Corps (Trustee Corps)
recorded a Notice of Default and Election to Sell,
stating the Note was in default in the amount of
$55,059.76. Trustee Corps served and recorded a
notice of trustee’s sale on July 10, 2012, and on April
16, 2013, Trustee Corps conducted the foreclosure sale
of the Property. PNMAC purchased the Property for
$695,000, and a Trustee’s Deed Upon Sale to that
effect was subsequently recorded in the County
Recorder’s Office.
B. Plaintiff’s Lawsuit, the Successful Demurrer,
and Our Prior Decision Reversing and
Remanding
After the completed foreclosure sale, plaintiff sued
PNMAC in Los Angeles Superior Court. Not long thereafter, she filed a first amended complaint, and then a
second amended complaint. The second amended complaint asserted four causes of action: (1) “Violation of
California Commercial Code—Fraudulent Assignment,”
(2) Quiet Title, (3) Wrongful Foreclosure, and (4) “cancellation of instrument,” specifically attacking the deed
of trust, notice of default, and notice of trustee’s sale.
The gist of the pleading was that defendants had no
interest in the trust deed, and thus no right to foreclose on the Property, because MERS never validly
assigned the trust deed to PNMAC. Plaintiff alleged
no facts, however, that established whether she believed
the Assignment was void or merely voidable.
The trial court sustained PNMAC’s demurrer to the
second amended complaint without leave to amend. In
an opinion filed in December 2015, we affirmed. We
rested our holding largely on a conclusion that a foreclosure plaintiff does not have standing to challenge
an entity’s authority to initiate foreclosure proceed-

6a
ings, but we noted this standing issue was then pending
before our Supreme Court in Yvanova. Plaintiff sought
review in the Supreme Court on that basis, and the
Supreme Court issued an order remanding the matter
to us for reconsideration in light of its newly issued
Yvanova opinion, which holds “borrowers have standing
to challenge [deed of trust] assignments as void, but
not as voidable.” (Yvanova, supra, 62 Cal.4th at p. 939.)
We vacated our original December 2015 opinion
and issued a new opinion reversing the trial court’s
judgment of dismissal as to PNMAC. (Hernandez v.
PNMAC Mortg. Opportunity Fund Inv’rs, LLC (June
27, 2016, No. B258583) [nonpub. opn.].) We held
plaintiff’s second amended complaint did not then state
a valid cause of action as to any of the four claims it
asserted, including the wrongful foreclosure claim. We
also adhered to the prior conclusion, in our December
2015 opinion, that PNMAC’s demurrer was properly
sustained without leave to amend as to plaintiff’s
causes of action for violation of the Commercial Code,
quiet title, and cancellation of instruments. But we
held there was a reasonable probability plaintiff could
amend her wrongful foreclosure claim to state a valid
cause of action consistent with the parameters established in Yvanova, and we “remand[ed] the matter to
the trial court to give her that opportunity, which if
again contested via demurrer by PNMAC, the trial
court will decide on the record before it.” Specifically,
we explained plaintiff might be able to plead a valid
wrongful foreclosure theory because her briefs indicated
“she intends to allege PNMAC was not the true
beneficiary because the Assignment was absolutely
void—not simply voidable,” which conceivably could
also excuse her from the general requirement that a
plaintiff seeking to invalidate a foreclosure sale must

7a
allege tender (i.e., actual or offered payment) of the
amount due and owing under a promissory note.2
C. The Operative Third Amended Complaint
Back in the trial court, plaintiff filed a third amended
complaint in December 2016, which is the operative
pleading for purposes of this appeal. The operative
complaint alleges a single “Cause of Action for Wrongful
Foreclosure based on Void Assignment.” The various
paragraphs comprising this cause of action read more
like a memorandum of points and authorities than a
typical complaint, but as best we can follow, the wrongful foreclosure cause of action alleges the Assignment
was “void ab initio” for four reasons.
First, the operative complaint alleges the Assignment
is void because the trust deed itself is “void ab initio.”
Plaintiff presents a convoluted theory for why the
trust deed is purportedly void that she does not reprise
in her briefs seeking reversal in this appeal. Second,
the complaint alleges the Assignment was executed at
the request of the lender, Your-BestRate, and YourBest-Rate “could not have exercised authority with
respect to the Assignment inasmuch as [Your-]BestRate was dissolved by its state of incorporation” years
2

We elaborated: “[O]ur reading of the operative complaint
along with the additional facts plaintiff now represents she can
plead establishes a reasonable possibility plaintiff can go beyond
mere allegations and present a specific wrongful foreclosure
theory on which she intends to rely, namely, that the person who
ostensibly executed the Assignment, Graves, in fact had no
authority to act on MERS’s behalf; or if he did, he did not in fact
execute the Assignment because the notary, Castillo, who has
since apparently been convicted (not just indicted) for misuse of
her notary seal falsely verified his signature; and that just
months before the Assignment was ostensibly executed there
were competing claimants on the beneficial interest in the Note.”

8a
before the Assignment was made. Third, the complaint
“challenges the capacity and authority in which Todd
Graves executed the assignment.” The sole basis of
this challenge, as alleged, is that “Todd Graves has
executed voluminous documents with numerous different titles on behalf of multiple entities,” including
PNMAC and MERS. Fourth, and finally, the complaint alleges “[m]any of the instruments Todd Graves
executed, including the Assignment of which [p]laintiff
complains, were notarized by the notary . . . Corina
Castillo,” who was under criminal investigation and
allegedly pled guilty to “a few felony counts” of notary
fraud in an unrelated state court case.
Plaintiff’s operative complaint also includes other
assertions and information (allegations would not be
the right word) apart from the Assignment-related
averments. The complaint asserts the trustee’s sale of
the property was “void ab initio” because the authority
exercised by the trustee was “derived from void instruments.” The complaint includes a series of paragraphs
with the goal of establishing “[p]laintiff was ready and
willing to establish a positive relationship with the
defendants.” The complaint “brings to the court’s attention other acts of the [d] efendants, named and unnamed,
in furtherance of their pursuit to prevail in this
matter.” And in perhaps its oddest feature, the complaint itself states plaintiff requires leave to amend it
to “allege and substantiate” a “litany of additional
causes of action” and “to identify by name several of
the unnamed DOES in the interest of justice.”
D. Subsequent Trial Court Proceedings and
the Ruling Sustaining a Demurrer Without
Further Leave to Amend
Not long after plaintiff filed the operative complaint,
plaintiff filed a motion for leave to amend the opera-

9a
tive complaint. Plaintiff asked to make certain minor
revisions, to add six new causes of action that had not
been alleged in any of her four prior complaints, and
to name nine new defendants in place of unspecified
Does. Defendants opposed giving plaintiff leave to
further amend and the trial court denied the motion,
finding it moot because the “request for amendment is
not within the scope of the Court of Appeal[‘s] ruling
which allowed for amendment solely as to the cause of
action for Wrongful Foreclosure and solely against
[PNMAC].”3 The court ordered defendants to file a
responsive pleading to plaintiff’s operative complaint
within 30 days.
Defendants4 demurred to the operative complaint on
the grounds that plaintiff’s wrongful foreclosure claim,
even as again amended, did not “state facts sufficient
to constitute a cause of action, and is uncertain, unintelligible, and ambiguous.” Defendants argued the
wrongful foreclosure cause of action failed because
plaintiff had not alleged she tendered the amount due
under the Note, nor had she sufficiently alleged a valid
basis to excuse her from tendering that amount.
Defendants further argued (1) plaintiff had not alleged
sufficient facts to support her “bald allegation” that
the Assignment is void because Graves lacked capacity
or authority to sign the document, and (2) plaintiff’s
allegations concerning asserted impropriety by notary
Castillo did not establish any link to what occurred in
her case. Defendants additionally asked the court to
deny any request for further leave to amend, explaining “[p]laintiff’s theory of the case—that the individual
3

The court also struck the lines of text in the operative complaint that requested leave to amend.
4

Plaintiff’s operative complaint named “PennyMac Loan Services,
LLC” as one of the named defendants.

10a
[i.e., Graves] who signed the [A]ssignment . . . signed
documents on behalf of other entities—does not support
any basis for liability against [PNMAC] .”
The trial court sustained defendants’ demurrer without leave to amend. The court believed our opinion
remanding the matter “provided clear guidance regarding what facts were required to state a claim for
wrongful foreclosure,” namely, factual allegations that
Graves had no authority to act on MERS’s behalf or,
even if he did, he did not actually sign the Assignment
and Castillo falsely notarized a signature as his. The
trial court concluded the operative complaint failed to
plead such facts, explaining the operative complaint’s
allegation that Graves had executed documents for
other entities did not establish he had no authority to
execute the Assignment for MERS and there was no
allegation in the operative complaint that Castillo
falsely verified Graves’s signature on the Assignment.
The trial court further found the operative complaint
continued to seek to unwind the foreclosure sale of
the Property, which meant “the tender rule” was
applicable and plaintiff had not sufficiently alleged a
void assignment that would excuse her from tendering
the amount due under the Note.
The trial court thereafter entered a judgment of
dismissal, from which plaintiff now appeals.
II. DISCUSSION
We confront two questions in this appeal, one old
and one new. First, the old: we decide, now for the
third time, whether plaintiff has alleged facts to state
a proper wrongful foreclosure claim and, if not,
whether she has identified facts that she should be
given further leave to allege. The short answer is a
double no—the operative complaint presents no valid

11a
theory that the Assignment is void and plaintiff has
not presented sufficient justification for getting a fifth
bite at the apple. Second, the new: plaintiff argues she
should be permitted to assert seven heretofore unpled
causes of action and to name two additional defendants. It is too late for all that. We previously affirmed
the sustained demurrer as to all causes of action and
remanded solely to give plaintiff an opportunity to
amend the wrongful foreclosure cause of action in
light of Yvanova. Plaintiff had that opportunity, it was
unsuccessful, and she is entitled to nothing more now.
A. Standard of Review
“For purposes of reviewing a demurrer, we accept
the truth of material facts properly pleaded in the
operative complaint, but not contentions, deductions,
or conclusions of fact or law. We may also consider
matters subject to judicial notice. (Evans v. City of
Berkeley (2006) 38 Cal.4th 1, 6[ ].) To determine
whether the trial court should, in sustaining the demurrer, have granted plaintiff leave to amend, we consider
whether on the pleaded and noticeable facts there is a
reasonable possibility of an amendment that would
cure the complaint’s legal defect or defects. (Schifando
v. City of Los Angeles (2003) 31 Cal.4th 1074, 1081[ ].)”
(Yvanova, supra, 62 Cal.4th at p. 924, fn. omitted.)
Sustaining a demurrer without leave to amend is proper
“if either (a) the facts and the nature of the claims are
clear and no liability exists, or (b) it is probable from
the nature of the defects and previous unsuccessful
attempts to plead that the plaintiff cannot state
a claim.” (Cantu v. Resolution Tr. Corp. (1992) 4
Cal.App.4th 857, 889-890 (Cantu).)

12a
B. Plaintiff Has Not Stated a Cause of Action
for Wrongful Foreclosure, nor Has She
Shown She Can Fix the Problem
A claim for wrongful foreclosure lies where “(1) the
trustee or mortgagee caused an illegal, fraudulent, or
willfully oppressive sale of real property pursuant to a
power of sale in a mortgage or deed of trust; (2) the
party attacking the sale . . . was prejudiced or harmed;
and (3) in cases where the trustor or mortgagor challenges the sale, the trustor or mortgagor tendered the
amount of the secured indebtedness or was excused
from tendering.” (Lona v. Citibank, N.A. (2011) 202
Cal.App.4th 89, 104.)
In this case, the first and third of these elements
coincide: plaintiff’s wrongful foreclosure claim is predicated on the theory that the foreclosure was illegal
because the Assignment is void (meaning PNMAC
lacked valid authority to institute foreclosure proceedings), and prior cases have held a foreclosure arising
from a void instrument provides an excuse for the
ordinarily applicable rule that a wrongful foreclosure
plaintiff must allege tender, i.e., that she has paid or
offered to pay the amount in arrears (see, e.g., Glaski
v. Bank of America (2013) 218 Cal.App.4th 1079, 1100
(Glaski); see also Yvanova, supra, 62 Cal.4th at p. 929,
fn. 4). So the key issue is whether the operative complaint alleges facts that, if true, would establish the
Assignment is void (not merely voidable). It does
not—as to any of the alleged theories the operative
complaint proffers.
The operative complaint alleges the Assignment is
void because it was “purportedly” executed at the
request of Your-Best-Rate even though the company
had been “dissolved by its state of incorporation in
2010.” But the Assignment itself, which the trial court

13a
judicially noticed and which we do as well, does not
indicate it was executed at the behest of Your-BestRate. Rather, it states the “undersigned” grants,
assigns, and transfers the loan to PNMAC—where the
“undersigned” is MERS, “acting solely as nominee for
Lender, [Your-Best-Rate], its successors and/or assigns.”
By failing to acknowledge or grapple with the reference to the successors or assigns of Your-Best-Rate,
the allegation in the complaint does not suffice to establish the trust deed was transferred without authority—
especially when, as we have already explained, YourBest-Rate assigned the Note to CitiMortgage, Inc. on
the same day it was executed via a first allonge to the
Note and the trust deed necessarily accompanied that
assignment. (See, e.g., Yvanova, supra, 62 Cal.4th at
p. 927 [“The deed of trust . . . is inseparable from the
note it secures, and follows it even without a separate
assignment”].) Furthermore, even if plaintiff were
right that Your-Best-Rate retained the Note and trust
deed when Your-Best-Rate was allegedly dissolved,
there is persuasive authority that MERS still would
have the power to execute the Assignment in that circumstance. (See, e.g., L’Amoreaux v. Wells Fargo Bank,
N.A. (5th Cir. 2014) 755 F.3d 748, 750 [“Although [the
lender] had ceased to exist at the time of the assignment, the Deed of Trust explicitly contemplates
MERS’s continuing to act as nominee for [the lender’s]
‘successors and assigns’”]; Ghuman v. Wells Fargo
Bank, N.A. (E.D. Cal. 2013) 989 F.Supp.2d 994, 10021003.) This alleged theory of voidness therefore fails.
Next, the operative complaint alleges the Assignment is void on its face because plaintiff “challenges
the capacity and authority in which . . . Graves
executed” it. This is merely a contention or conclusory
allegation of law entitled to no weight in a demurrer
analysis. (Yvanova, supra, 62 Cal.4th at p. 924.) What

14a
plaintiff needs are well-pleaded facts, and the operative complaint offers only this: “Graves has executed
voluminous documents with numerous different titles
on behalf of multiple entities, including but not limited
to” documents as attorney-in-fact for PNMAC and as
Assistant Secretary of MERS.
That is not enough. The allegation that Graves
executed other documents in other capacities (largely
similar to the capacity in which he executed the Assignment here) does not establish a factual predicate that
he had no authority to execute the Assignment. No
facts are alleged that would suggest the capacities in
which Graves signed the other documents are somehow
inconsistent with his authority to simultaneously act
for MERS in connection with the Assignment. (See
generally Cervantes v. Countrywide Home Loans, Inc.
(9th Cir. 2011) 656 F.3d 1034, 1040 [“MERS relies
on its members to have someone on their own staff
become a MERS officer with the authority to sign
documents on behalf of MERS. [Citation.] As a result,
most of the actions taken in MERS’s own name are
carried out by staff at the companies that sell and buy
the beneficial interest in the loans”].) Moreover, of all
the other documents bearing Graves’s signature that
plaintiff attaches to her complaint, none were executed
on the same day as the Assignment. There is thus not
even a factual predicate to conclude he acted in more
than one capacity simultaneously.
Plaintiff’s opening brief suggests she can cure her
deficient factual allegations concerning Graves by adding a single sentence to the complaint: “‘Graves was
not authorized to execute the Assignment, PennyMac’s
permission notwithstanding; PennyMac did not have
authority to so direct.’” This still does not fix the
problem, for two reasons. First, this proposed addition

15a
is still just a contention or conclusion of law. (See, e.g.,
Glaski, supra, 218 Cal.App.4th at p. 1094; Zumbrun v.
University of Southern California (1972) 25 Cal.App.3d
1, 8 [“General and indefinite assertions of liability
are not sufficient compliance with the rules of pleading
. . .. Facts, not conclusions, must be pleaded”].) Second,
the proposed addition—in tension with the existing
allegations—concedes Graves did have authority to
execute the Assignment but for some unspecified
reason the authority conferred was insufficient. Still
missing are alleged facts as to why it was insufficient,
and plaintiff has recited no facts she would add to the
complaint if given further leave to amend that would
remedy the deficiency. (Cantu, supra, 4 Cal.App.4th
at p. 890 [to meet the burden to show a possibility of
amendment “a plaintiff must submit a proposed amended
complaint or, on appeal, enumerate the facts and demonstrate how those facts establish a cause of action”] .)
Finally, the operative complaint alleges the Assignment is void because “[m] any of the instruments . . .
Graves executed, including the Assignment of which
[p]laintiff complains, were notarized by the notary
now familiar in this case . . . Castillo,” who was under
criminal investigation at the time and, as alleged,
later pled guilty in 2014 to fraudulently notarizing
documents. Even assumed true, these allegations have
no bearing on what happened here. Plaintiff still has
not alleged facts that would suggest Castillo’s criminal
conduct extended to this case such that she falsely
verified a document Graves did not in fact sign.
Plaintiff makes no showing in her briefs on appeal that
she could allege facts to remedy the deficiency—the
most she is able to muster is a passing, conclusory
assertion that the Assignment “was acknowledged by
a notary public who knew or should have known it
was false; they [i.e., Graves and Castillo] had been

16a
co-workers for some time.” Again, that knew-orshould-have-known assertion is not a well-pleaded
factual allegation on which liability may be had.
C. The Trial Court Correctly Denied Further
Leave to Amend to Add New Causes of Action
and Defendants, Which Would Be Beyond the
Scope of Our Remand
Only a sliver of plaintiff’s case remained after our
last opinion remanding this case to the trial court. We
held the trial court correctly sustained demurrers to
all of plaintiff’s causes of action and we affirmed denial
of leave to amend as to all but the wrongful foreclosure
cause of action. We remanded the case to the trial
court solely because we believed there was a reasonable possibility plaintiff could plead a valid cause of
action for wrongful foreclosure against PNMAC and
we concluded she “should have an additional opportunity to amend her complaint to state a valid
wrongful foreclosure claim.”
Plaintiff got just what we ordered, but as we have
just explained, she failed in her fourth attempt to state
a valid cause of action. In the trial court, she asked for
yet another opportunity to amend to add never-beforeasserted causes of action and new defendants, which
the trial court denied. She now makes the same request
on appeal. Specifically, she argues she should be given
leave to assert causes of action for (1) promissory
estoppel, (2) a violation of the Unfair Competition Law
(Bus. & Prof. Code, § 17200), (3) intentional interference with prospective economic advantage, (4 and 5)
negligent “and/or” intentional infliction of emotional
distress, (6) “fraudulent deceit,” (7) “vicarious responsibility of the willful torts committed by Graves and
Castillo,” and (8) “violating the statute governing out
of state affidavits” (Civ. Code, § 2015.5). She also

17a
proposes to add CitiMortgage, Inc. and MERS in place
of Doe defendants, claiming she was not previously aware
of facts giving rise to a cause of action against them.
We will not order granting of leave to amend the
operative complaint in any respect. Four times plaintiff failed to allege a valid cause of action, and these
repeated failures are reason to conclude the trial court
did not err in denying further leave to amend. (Ruinello
v. Murray (1951) 36 Cal.2d 687, 690 [“Although the
deficiencies in plaintiff’s complaints were raised in
defendant’s demurrers, after three attempts he has
not overcome them. The trial court could reasonably
conclude that he was unable to do so, and accordingly,
it did not abuse its discretion in sustaining the demurrer to the third amended complaint without leave to
amend”]; see also Johnson v. Ehrgott (1934) 1 Cal.2d
136, 138 [“[T]here must be a limit to the number of
amended complaints”]; Titus v. Canyon Lake Property
Owners Assn. (2004) 118 Cal.App.4th 906, 918; Cantu,
supra, 4 Cal.App.4th at p. 890 [“A trial court does
not abuse its discretion when it sustains a demurrer
without leave to amend if . . . it is probable from the
nature of the defects and previous unsuccessful attempts
to plead that the plaintiff cannot state a claim”];
Krawitz v. Rusch (1989) 209 Cal.App.3d 957, 967.)
Just as important, all of plaintiff’s proposed amendments are beyond the scope of our remand order,
which was limited to giving plaintiff a further chance
to amend her wrongful foreclosure claim in light of
Yvanova. (Ayyad v. Sprint Spectrum, L.P. (2012) 210
Cal.App.4th 851, 860 [“when an appellate court remands
a matter with directions governing the proceedings on
remand, ‘those directions are binding on the trial court
and must be followed. Any material variance from the
directions is unauthorized and void”].) The trial court

18a
correctly rejected—and we reject—plaintiff’s proposal
to essentially start this litigation again from scratch
with an entirely new complaint and a new set of
defendants. Plaintiff has been given well more than a
fair opportunity to correct any defect and it is time this
lawsuit comes to an end.
DISPOSITION
The judgment is affirmed. Defendants shall recover
their costs on appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
BAKER, J.
We concur:
RUBIN, P. J.
MOOR, J.

19a
APPENDIX C
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
DATE: 10/23/17

DEPT. M

HONORABLE
RAMONA G. SEE
HONORABLE

JUDGE S. ROSARIO

DEPUTY
CLERK

JUDGE C. MORALES
PRO TEM
ELECTRONIC
RECORDING MONITOR

M. FONDON, C.A.

8:30 am

Deputy NONE
Sheriff

Reporter

YC068794
SHERRY HERNANDEZ
VS
PNMAC MORTGAGE OPPORTUNITY
FUND INVENTORS, LLC, ET AL
Plaintiff
Counsel
Defendant
Counsel

NO APPEARANCES

NATURE OF PROCEEDINGS:
PNMAC MORTGAGE OPPORTUNITY FUND INVESTORS, LLC AND PENNYMAC LOAN SERVICES,
LLC’S DEMURRER TO THIRD AMENDED COMPLAINT

20a
RULING ON SUBMITTED MATTER
The Court, having taken above matter under submission on September 26, 2017, now makes its ruling
as follows:
Defendant PNMAC Mortgage Opportunity Fund
Investors, LLC and PennyMac Loan Services, LLC’s
Demurrer to Third Amended Complaint is sustained
without leave to amend as to the remaining cause of
action for Wrongful Foreclosure on the grounds that
the Court finds Plaintiff’s Third Amended Complaint
(“TAC”) fails to allege sufficient facts to address either
of the two’ areas identified by the Court of Appeal in
its opinion in this action.
The elements of a wrongful foreclosure cause of
action are “(1) the trustee or mortgagee caused an
illegal, fraudulent, or willfully oppressive sale of real
property pursuant to a power of sale in a mortgage or
deed of trust; (2) the party attacking the sale (usually
but not always the trustor or mortgagor) was prejudiced or harmed; and (3) in cases where the trustor or
mortgagor challenges the sale, the trustor or mortgagor tendered the amount of the secured indebtedness or was excused from tendering.” See Lona v.
Citibank, N.A. (2011) 202 Cal. App. 4th 89, 104. The
Yvanova court held that a home loan borrower has
standing to claim a nonjudicial foreclosure was wrongful because an assignment was not merely voidable
but void. Yvanova, 62 Cal. 4th at 942-43.
The Court of Appeal’s June 27, 2016 decision
provided clear guidance regarding what facts were
required to state a claim for wrongful foreclosure. The
Court of Appeal identified two specific areas: (1) “the
person who ostensibly executed the Assignment,
[Todd] Graves, in fact had no authority to act on

21a
MERS’s behalf; or if he did, he did not in fact execute
the Assignment because the notary, [Corina] Castillo,
who has since apparently been convicted (not just
indicted) for misuse of her notary seal falsely verified
his signature; and just months before the Assignment
was ostensibly executed there were competing claimants on the beneficial interest in the Note”; and
(2) “sufficient facts . . . that would come within one of
the recognized exceptions [to the tender rule] - particularly if, as plaintiff now contends, the complaint ‘would
be nothing more than an action for money damages,’
rather than an attempt to unwind the completed
foreclosure sale.” See Defendant’s Request for Judicial
Notice, Exhibit H, at pp. 12, 15. In the portions of the
TAC where Todd Graves (“Graves”) is mentioned,
Plaintiff has two lines of allegations: (1) Graves
“executed voluminous documents with numerous
different titles on behalf of multiple entities”; and (2)
Graves executed many instruments notarized by
Corina Castillo (“Castillo”), who was involved in
fraudulent notary scams in other matters. See TAC,
¶¶ 1.F.3, 4. With regard to the first line of allegations,
the Third Amended Complaint only alleges that
Graves executed numerous documents as “Attorneyin-fact for PNMAC Mortgage Company, LLC;
Attorney-in-fact for Citimortgage, Inc.; Director of
Customer Contact for PennyMac Loan Services, LLC”
and as “Assistant Secretary of MERS, as nominee for
various entities, such as PNMAC Mortgage Company,
LLC; Citimortgage, Inc.; PMC Bancorp, BankersWest
Funding Corporation; FMF Capital, LLC; SBMC
Mortgage, MortgageIt, Inc.; Magnus Financial
Corporation; and absurdly, solely for MERS.” The
Court finds the Third Amended Complaint fails to
allege how the aforementioned facts establish that
Graves had no authority to act on MERS’s behalf. The

22a
Court notes that the Opposition also falls to provide
authority demonstrating how the aforementioned
facts support the contention that Graves had no
authority to execute the assignment. As to the second
line of allegations regarding Corina Castillo, the Third
Amended Complaint does not allege that Castillo
falsely verified Graves’s signature. The Court notes
that the Third Amended Complaint only describes
Castillo’s involvement in fraudulent notary scams in
other matters, without alleging how those other
matters are in any way connected to the instant case.
See TAC, at ¶ 1.F.4.a.-d. While Castillo’s prior
criminal, activity as a notary casts a dark cloud over
her character and professionals conduct, such
questions are beyond the purview of a demurrer.
With regard to the second area identified by the
Court of Appeal, the Third Amended Complaint is also
deficient. The Court of Appeal stated that Plaintiff
must allege sufficient facts to show that she falls
within one of the recognized exceptions to the tender
rule and concluded that Plaintiff had a reasonable
possibility to do so “particularly if, as plaintiff now
contends, the complaint ‘would be nothing more than
an action for money damages,’ rather than an attempt
to unwind the completed foreclosure sale.” See
Defendant’s Request for Judicial Notice, Exhibit H, at
p. 15. The recognized exceptions to the requirement
to tender the debt are: 1) the borrower attacks the
validity of the debt (e.g., based on fraud); 2) the
borrower has a counter-claim or set-off against the
beneficiary sufficient to cover the amount due; 3) it
would be inequitable as to a party not liable for the
debt; and 4) the trustee’s deed is void on its face, apart
from equitable principals (e.g., trustee lacked power to
convey property). Lona v. Citibank, N.A. (2011) 202
Cal.App.4th 85, 112-13; Shuster v. BAC Home Loans

23a
Servicing, LP (2012) 211 Cal.App.4th 505, 512. The
Court finds the Third Amended Complaint does not
limit Plaintiff’s action to money damages, but prays for
“an order overturning the sale of the Subject Property
in accordance with existing law.” See TAC, Prayer, at
¶ 1.d. Further, Plaintiff’s only allegation that she is
excused from the tender rule is that she has alleged
facts showing a void assignment, however, this Court
already found supra that Plaintiff fails to allege sufficient facts showing that Graves lacked the authority
to execute the assignment or that his signature was
falsely verified, thereby rendering the assignment void
to fall within this exception to the tender rule. Id. at
¶ 1.F.3., 4; see also Defendant’s Request for Judicial
Notice, Exhibit H at p. 10.
Defendants’ Request for Judicial Notice is granted.
See Evidence Code § 452(d), (h). Plaintiff’s Objections
to the Defendants’ Request for Judicial Notice are
overruled.
Plaintiff’s Request for Judicial Notice is denied as to
the letter from Monique Blakeley from the L.A.
County Recorder’s Office and a tentative ruling dated
February 12, 2013. See Evidence Code § 452(h).
Plaintiff’s Request for Judicial Notice is granted as to
all other documents. See Evidence Code § 452(d), (h).
Clerk is ordered to give notice of this ruling.
MINUTES ENTERED
10/23/17
COUNTY CLERK

24a
CLERK’S CERTIFICATE OF MAILING
I, the below-named Executive Officer/Clerk of the
above-entitled court, do hereby certify that I am not a
party to the cause herein, and that on this date I
served the October 23, 2017 Minute Order upon each
party or counsel named below by placing the document
for collection and mailing so as to cause it to be
deposited in the United States mail at the courthouse
in Torrance, California, one copy of the original
filed/entered herein in a separate sealed envelope to
each address as shown below with the postage thereon
fully prepaid, in accordance with standard court
practices.
Dated: October 23, 2017
Sherri R, Carter, Executive Officer/Clerk
By:
S. Rosario
BLANK ROME LLP
2029 CENTURY PARK EAST
6TH FLOOR
LOS ANGELES, CA 90067
RHONDA HERNANDEZ, ESQ.
P.O. BOX 16924
GALVESTONE, TX 77552

MINUTES ENTERED
10/23/17
COUNTY CLERK

25a
APPENDIX D
NOT TO BE PUBLISHED IN THE
OFFICIAL REPORTS
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA SECOND APPELLATE DISTRICT
DIVISION FIVE
[Filed June 27, 2016]
————
B258583
(Los Angeles County Super. Ct. No. YC068794)
————
SHERRY HERNANDEZ,
Plaintiff and Appellant,
v.
PNMAC MORTGAGE OPPORTUNITY
FUND INVESTORS, LLC, et. al.,
Defendants and Respondents.
————
APPEAL from a judgment of the Superior Court of
Los Angeles County, Ramona G. See, Judge. Affirmed
in part, reversed in part, and remanded.
Sherry Hernandez, in pro. per.; Law Office of David
W. Seal and David W. Seal for Plaintiff and Appellant.
Blank Rome, Todd A. Boock, Shawnda M. Grady,
Jessica A. McElroy, and Cheryl S. Chang, for Defendant and Respondent PNMAC Mortgage Opportunity
Fund Investors, LLC.
Burke, Williams & Sorensen, Richard J. Reynolds
and Joseph P. Buchman, for Defendant and Respondent MTC Financial, Inc. dba Trustee Corps.

26a
Plaintiff Sherry Hernandez (plaintiff) sued the
parties responsible for foreclosing on her residence.
She alleged there were defects in the assignment of the
deed of trust on the property such that the entity that
initiated the foreclosure sale did so without proper
authority. The trial court sustained demurrers to
plaintiff’s complaint and entered a judgment of dismissal. We issued an opinion affirming the judgment,
which noted that our resolution of the appeal involved
an issue that was then pending before our Supreme
Court: whether a borrower has standing to challenge
an allegedly defective assignment of a trust deed by
way of a cause of action for wrongful foreclosure.
Several months later, the Supreme Court issued
its decision in Yvanova v. New Century Mortgage
Corporation (2016) 62 Cal.4th 919 (Yvanova) and
held—contrary to our earlier resolution of the issue,
and disapproving three Court of Appeal decisions on
which we relied—a borrower does have standing to
challenge assignments that are allegedly void (but not
merely voidable). The Supreme Court granted review
of our prior decision and remanded the case to us with
directions to vacate our opinion and reconsider the
matter in light of Yvanova. We do so now, concluding
plaintiff should have an additional opportunity to
amend her complaint to state a valid wrongful foreclosure claim, having never had the chance to do so
consistent with the principles our Supreme Court has
now identified in Yvanova.
I. BACKGROUND
Plaintiff’s husband, Alfredo Hernandez, borrowed
$752,500 from Your-Best-Rate Financial, LLC, evidenced by his promissory note in that amount (the
Note). The Note was secured by a deed of trust on the
family’s Rancho Palos Verdes home (the Property).

27a
The express terms of the trust deed defined the “borrower” to be “Alfredo Hernandez and [plaintiff],
husband and wife and Elizabeth Hernandez, a single
woman.” The deed of trust defined the term “Note” to
mean “the promissory note signed by Borrower,” i.e.,
the $752,500 note signed on January 18, 2008.
Plaintiff, her husband, and her daughter Elizabeth all
signed the deed of trust, which included a provision
authorizing sale of the Property in the event of a
default on the payments due under the Note.
The original lender, Your-Best-Rate Financial, LLC,
assigned the Note to CitiMortgage, Inc. on the same
day it was executed via a first allonge to the Note. A
copy of the Note included in the appellate record,
which we will later describe in more detail, also
includes a second attached allonge that indicates
“CitiMortgage, Inc. [b]y and through its Attorney in
Fact PNMAC Capital Management LLC” endorsed the
note in blank, which would operate to assign its
interest to whoever holds the Note.
On January 18, 2012, PennyMac Loan Services
recorded an assignment of the deed of trust on the
Property (the Assignment). By its terms, the Assignment indicates Mortgage Electronic Registration
Systems, Inc. (MERS),1 the nominee “for Lender and
1

“MERS was formed by a consortium of residential mortgage
lenders and investors to streamline the transfer of mortgage
loans and thereby facilitate their securitization. A member lender
may name MERS as mortgagee on a loan the member originates
or owns; MERS acts solely as the lender’s ‘nominee,’ having legal
title but no beneficial interest in the loan. When a loan is assigned
to another MERS member, MERS can execute the transfer by
amending its electronic database. When the loan is assigned to
a nonmember, MERS executes the assignment and ends its
involvement.” (Yvanova, supra, 62 Cal.4th at p. 931, fn. 7.)

28a
Lender’s successors and assigns” under the deed of
trust, assigned “all beneficial interest” under the trust
deed to PNMAC Opportunity Fund Investors, LLC
(PNMAC). On its face, the Assignment indicates it was
executed on January 5, 2012, by Todd Graves
(Graves), acting in his capacity as an assistant secretary of MERS. The Assignment also bears an attestation by Corina Castillo, a Los Angeles County Notary
Public, that Graves personally appeared before her
and proved by satisfactory evidence that he executed
the Assignment.
The same day the Assignment was recorded, MTC
Financial, Inc. dba Trustee Corps (Trustee Corps)2 recorded a Notice of Default and Election to Sell, stating
the Note was in default in the amount of $55,059.76.
Trustee Corps served and recorded a notice of trustee’s
sale on July 10, 2012, which scheduled the foreclosure
sale to take place on August 6, 2012.
The sale was postponed when an automatic stay
took effect upon the filing of a bankruptcy petition by
Elizabeth Hernandez, plaintiff’s co-trustor under the
deed of trust. During the trial court proceedings in this
case, both PNMAC and Trustee Corps asked the court
to take judicial notice of certain documents filed
during the bankruptcy proceedings. Among the
documents was the bankruptcy court’s tentative
ruling on PNMAC’s motion for relief from the automatic bankruptcy stay. In its tentative ruling, the
bankruptcy court questioned PNMAC’s interest in the
Note and gave the parties additional time to provide
evidence that PNMAC was entitled to enforce the
2

Trustee Corps was named the substitute trustee on February
14, 2012, and the Substitution of Trustee was recorded on July
10, 2012.

29a
terms of the Note. Also among the documents was a
March 13, 2013, supplemental declaration from Rita
Garcia, a Bankruptcy Manager for PNMAC’s authorized agent. The declaration attached a copy of the
Note with the second allonge purporting to show the
Note had been endorsed in blank by CitiMortgage.
(See, ante, at p. 3.) The Garcia declaration asserted
“[PNMAC] has possession and control of the original
Note with attached Allonges. As a result, [PNMAC] is
the real party in interest.”
Once PNMAC submitted the Garcia declaration
with the Note and two attached allonges, the bankruptcy court ruled PNMAC had standing to seek relief
from the automatic stay. Specifically, the bankruptcy
court held PNMAC’s submission of the Note, trust
deed, and the Assignment was sufficient to establish
it had “a colorable claim” in the Property.3 The Bankruptcy Court accordingly lifted the automatic stay on
April 15, 2013.
On April 16, 2013, Trustee Corps conducted the
foreclosure sale of the Property. PNMAC purchased
the Property for $695,000, and a Trustee’s Deed Upon
Sale to that effect was subsequently recorded in the
County Recorder’s Office.
In the meantime, plaintiff had filed a lawsuit
against defendants PNMAC and Trustee Corps in Los
Angeles Superior Court. She filed a first amended
complaint after the foreclosure sale, and later a
second amended complaint (the operative complaint)
3

The bankruptcy court explained: “Movant also attache[d] a
copy of the Note with allonges to the Supplemental Declaration.
One of the allonges ... was not [previously] submitted with
the Motion, and appears to be an endorsement in blank by
CitiMortgage, Inc. (‘Citimortgage’).”

30a
on December 2, 2013. The operative complaint asserts
four causes of action: (1) “Violation of California
Commercial Code–Fraudulent Assignment,” (2) Quiet
Title, (3) Wrongful Foreclosure, and (4) “cancellation
of instrument,” specifically, the deed of trust, notice of
default, and notice of trustee’s sale.
The overall gist of the operative complaint is fairly
summed up by a sentence in one of its general allegations: “This action arises out of the wrongful conduct
of the defendants as concerns a fraudulent assignment
of deed of trust and a wrongful foreclosure on the . . .
Property.” (Operative Complaint ¶ 7.) The theory of
the operative complaint, as taken from the general
allegations and portions of the allegations set forth in
connection with the designated causes of action, is that
PNMAC had no interest in the trust deed, and thus no
right to foreclose on the Property, because MERS
never in fact assigned the trust deed to PNMAC.
Instead, plaintiff alleges Graves (whose signature
ostensibly appears on the Assignment) “is not, nor has
he ever been” a representative of MERS. (Operative
Complaint ¶ 25.) In the same vein, plaintiff further
alleges the notary that verified Graves signed the
Assignment “is or was an employee of one or more of
[defendants]” and that she “has been indicted and is
currently being prosecuted in Los Angeles California
for criminal misuse of her notary seal.” (Operative
Complaint ¶¶ 25, 39.) Plaintiff further alleges, on
information and belief, that defendants have no
beneficial interest in the Note, and that the “Note
was never assigned, sold, transferred or otherwise conveyed to Defendants.” (Operative Complaint ¶¶ 13,
15.)
Significantly, the Operative Complaint contains
somewhat contradictory allegations concerning the

31a
validity of the trust deed and the notice documents
associated with the foreclosure process. In the portion
of her complaint pertaining to the cause of action for
cancellation of instruments, plaintiff requests entry of
judgment “declaring the Assignment of Deed of Trust,
Notice of Default and Election to Sell and Notice of
Trustee Sale, to be void ab initio.” (Operative Complaint ¶ 55.) Just six paragraphs later, however,
plaintiff states she “is the person against whom the
instruments are void or voidable,” and she is therefore
entitled to relief. (Operative Complaint ¶ 61 [emphasis
added].) As to her cause of action for wrongful
foreclosure, plaintiff does allege “[t]here has been no
valid assignment of any deed of trust” (Operative
Complaint ¶ 39), but she makes no assertion as to
whether the Assignment was void, or merely voidable.
Rather, she states only that she seeks money damages
and an order declaring the deed recorded upon
completion of the foreclosure sale void. (Operative
Complaint ¶¶ 47, 48.)
As they had in response to each of her two prior
complaints, PNMAC and Trustee Corps demurred to
the operative complaint. They contended all of plaintiff’s causes of action failed because she had not
unconditionally tendered the amounts due under the
Note, and because the comprehensive statutory framework for nonjudicial foreclosures precluded her from
stating a valid cause of action. As to the wrongful
foreclosure and Commercial Code causes of action in
particular, PNMAC asserted plaintiff could not “seek
judicial review as to whether the entity that initiated
the non-judicial foreclosure proceedings was authorized to do so.”
In a written ruling issued after the trial court took
the matter under submission, the court granted

32a
defendants’ request for judicial notice of the trust
deed, Assignment, and other documents recorded in
the Los Angeles County Recorder’s Office, as well as
the documents concerning Elizabeth Hernandez’s
bankruptcy proceeding. The court sustained the
demurrers filed by defendants as to all four causes of
action without leave to amend. The trial court reasoned the complaint failed to allege that plaintiff
unconditionally tendered the amount of indebtedness,
or facts to establish that tender was not required; the
complaint failed to sufficiently allege that plaintiff
suffered prejudice by reason of the foreclosure; and the
allegation that the document assigning the trust deed
contained an improper signature was insufficient,
absent prejudice, to state a cause of action. The court
elaborated on the concept of prejudice, explaining
plaintiff had not asserted she or her husband
attempted to pay the outstanding debt and thus, in the
court’s view, “the victim of the alleged improper
execution of the Deed of Trust and improper
notarization would be the lender which would have
been entitled to foreclose, not the Plaintiff.”
The trial court entered a judgment of dismissal, and
plaintiff timely appealed. In an opinion filed on
December 18, 2015, we affirmed the judgment. We
rested our holding largely on our conclusion that a
foreclosure plaintiff does not have standing to challenge an entity’s authority to initiate foreclosure
proceedings based on an allegedly defective assignment. We noted, however, that the standing issue we
resolved against plaintiff was pending before our
Supreme Court in Yvanova. Plaintiff sought review in
the Supreme Court on that basis, and the Supreme
Court issued an order remanding the matter to us for
reconsideration in light of its newly issued Yvanova
opinion.

33a
II. DISCUSSION
Plaintiff filed the operative complaint in December
2013, long before our Supreme Court decided Yvanova.
As it is now pled, the complaint does not adequately
state a valid cause of action, and plaintiff in her supplemental briefing after remand does not seriously
contend otherwise. Rather, the focus of the parties’
dispute is now whether there is a reasonable possibility plaintiff could state a valid cause of action for
wrongful foreclosure post-Yvanova. In particular,
plaintiff contends that although the operative complaint “contained an erroneously labeled, and perhaps
inartfully[ ] drafted first cause of action,” the gist of
the complaint was that plaintiff “was arguing she had
the right to question the foreclosure due to a void
assignment of the Deed of Trust.” Plaintiff argues
there is a reasonable probability she can plead facts
stating a valid claim for wrongful foreclosure consistent with the parameters established in Yvanova
and urges us to remand the case to the trial court so
she may have an opportunity to do so. Owing to the
significant change in controlling authority, and seeing
no basis to conclude at this stage that a wrongful
foreclosure claim against PNMAC would be doomed,
we agree she should have that opportunity. As to
Trustee Corps, however, a wrongful foreclosure claim
is doomed, as we shall explain. We therefore affirm the
judgment of dismissal solely as to that party.
A. Standard of Review
We review de novo the trial court’s order sustaining
the demurrers and we determine whether the
operative complaint states a valid cause of action.
(Brown v. Deutsche Bank National Trust Company
204 Cal.App.4th 433.) “[W]e accept the truth of material facts properly pleaded in the operative complaint,

34a
but not contentions, deductions, or conclusions of fact
or law. We may also consider matters subject to
judicial notice. (Evans v. City of Berkeley (2006) 38
Cal.4th 1, 6.) To determine whether the trial court
should, in sustaining the demurrer, have granted the
plaintiff leave to amend, we consider whether on the
pleaded and noticeable facts there is a reasonable
possibility of an amendment that would cure the
complaint’s legal defect or defects. (Schifando v. City
of Los Angeles (2003) 31 Cal.4th 1074, 1081.)”
(Yvanova, supra, 62 Cal.4th at p. 924 [footnote
omitted].)
B. The Operative Complaint Does Not Now State a
Valid Cause of Action
1. Claims other than wrongful foreclosure
We adhere to our prior opinion’s resolution of plaintiff’s appeal as to the first, second, and fourth causes
of action in the operative complaint, for violation of
the Commercial Code, quiet title, and cancellation of
instruments, respectively. As the trial court concluded, the Commercial Code has no application in
the realm of nonjudicial foreclosure. (Debrunner v.
Deutsche Bank Nat. Trust Co (2012) 204 Cal.App.4th
433, 441.) In addition, “[i]t is settled in California that
a mortgagor cannot quiet his title against the mortgagee without paying the debt secured,” which plaintiff
has not done. (Shimpones v. Stickney (1934) 219
Cal. 637, 649; accord, Lueras v. BAC Home Loans
Servicing, LP (2013) 221 Cal.App.4th 49, 86 [citing
additional cases].) And as to the cause of action for
cancellation of instruments, plaintiff has alleged no
facts which would support cancellation of the Note or
deed of trust because she does not dispute the validity
of those documents; she challenges only the validity of
the trust deed’s transfer by way of the Assignment.

35a
2. The wrongful foreclosure cause of action
The elements of a claim for wrongful foreclosure are
“(1) the trustee or mortgagee caused an illegal,
fraudulent, or willfully oppressive sale of real property
pursuant to a power of sale in a mortgage or deed of
trust; (2) the party attacking the sale (usually but not
always the trustor or mortgagor) was prejudiced or
harmed; and (3) in cases where the trustor or mortgagor challenges the sale, the trustor or mortgagor
tendered the amount of the secured indebtedness or
was excused from tendering.” (Lona v. Citibank, N.A.
(2011) 202 Cal.App.4th 89, 104.)
In our prior opinion, we relied on three Court of
Appeal decisions that held a plaintiff who does not
dispute obligations owed under a promissory note or
deed of trust cannot demonstrate prejudice from an
allegedly defective assignment because the assignment merely substitutes one party for another without
changing the underlying obligations; the true victim of
the defective assignment in such circumstances, so
the argument goes, is the lender not the plaintiff.
(Hernandez v. PNMAC Mortgage Opportunity Fund
Investors, LLC, et al. (Dec. 18, 2015, B258583
[nonpub. opinion, citing Siliga v. Mortgage Electronic
Registration Systems, Inc. (2013) 219 Cal.App.4th 75;
Herrera v. Federal Nat. Mortg. Assn. (2012) 205
Cal.App.4th 1495; Fontenot v. Wells Fargo Bank, N.A.
(2011) 198 Cal.App.4th 256].) There was another
Court of Appeal decision holding to the contrary,
Glaski v. Bank of America (2013) 218 Cal.App.4th
1079, but at the time it occupied, as one court has
described it, “a lonely minority position on one side
of a split in the California courts.” (Lundy v. Selene
Finance, LP (N.D. Cal. Mar. 17, 2016, No.
15CV05676JST) 2016 WL 1059423.)

36a
The Yvanova decision changed that, siding with
Glaski and marking a sharp shift in the pre-existing
legal landscape. In Yvanova, our Supreme Court
resolved what it described as the narrow question on
which it granted review: “whether the borrower on a
home loan secured by a deed of trust may base an
action for wrongful foreclosure on allegations a purported assignment of the note and deed of trust to the
foreclosing party bore defects rendering the assignment void.” (Yvanova, supra, 62 Cal.4th at p. 923.) The
court held “an allegation that the assignment was
void, and not merely voidable at the behest of the
parties to the assignment, will support an action for
wrongful foreclosure.” (Id. at p. 924.) Although the
court rejected the financial institution defendants’
argument that the plaintiff had no standing to bring a
wrongful foreclosure claim based on an allegedly
defective assignment, the court’s opinion did include
language disclaiming any intent to resolve questions
concerning the substantive elements of the wrongful
foreclosure tort or the factual showing needed to meet
those elements. (Ibid.)
In her supplemental briefing, plaintiff essentially
concedes the complaint, including the wrongful foreclosure cause of action, does not now state a valid
claim. She acknowledges portions of the complaint are
“perhaps inartfully[ ] drafted” and she recognizes “[a]
favorable ruling at this stage will still mean the
borrower must file a complaint that makes sufficient
allegations.” We agree, for her alternative usage of
void or voidable, and the allegations made specifically
in connection with her wrongful foreclosure claim,
leaves her theory of liability unclear, and unclear in a
manner that makes all the difference under Yvanova.
But the conclusion the complaint is not sufficient as it
stands does not end our inquiry; rather, plaintiff

37a
devotes nearly the entirety of her supplemental briefing to making the case that she deserves an opportunity to amend the complaint to state a wrongful
foreclosure claim with the benefit of our Supreme
Court’s guidance in Yvanova.
C. Plaintiff Is Entitled to An Additional Opportunity to Allege a Valid Cause of Action for
Wrongful Foreclosure against PNMAC
When addressing whether leave to amend a complaint was erroneously denied, a plaintiff “must show
in what manner he can amend [the] complaint and
how that amendment will change the legal effect of
[the] pleading.” (Goodman v. Kennedy (1976) 18 Cal.3d
335, 349, internal citations omitted.) We decide
whether there is a reasonable possibility the defect or
defects in the complaint can be cured by an amendment; if so, the court has abused its discretion and we
reverse. (City of Dinuba v. County of Tulare (2007) 41
Cal.4th 859, 865.)
As we have said, the Yvanova decision represented
a significant shift from preexisting case law, and in
light of Yvanova, we hold there is a reasonable
possibility plaintiff can amend to state a valid cause
of action for wrongful foreclosure.4 Taken together,
portions of the existing operative complaint and
plaintiff’s supplemental briefing in this court are
sufficient indication she intends to allege PNMAC was
not the true beneficiary because the Assignment
was absolutely void—not simply voidable.5 (Yvanova,
4

This shift is also why we do not fault plaintiff for articulating
only now how she would amend the complaint in an effort to state
a valid wrongful foreclosure cause of action.
5

While a void contract is one without legal effect that binds no
one and is a mere nullity, a voidable contract is one that the

38a
supra, 62 Cal.4th at p. 935 [“If a purported assignment
necessary to the chain by which the foreclosing entity
claims that power [to complete a nonjudicial foreclosure] is absolutely void, meaning of no legal force or
effect whatsoever [citations], the foreclosing entity has
acted without legal authority by pursuing a trustee’s
sale, and such an unauthorized sale constitutes a
wrongful foreclosure”].) PNMAC, however, counters
that mere allegations an Assignment is defective and
thereby void are insufficient; to plead wrongful foreclosure a plaintiff must identify facts establishing how
the Assignment is void. We agree that a plaintiff does
not state a valid cause of action solely by including
boilerplate language in a complaint asserting an
assignment is void. (Glaski v. Bank of America, supra,
218 Cal.App.4th at p. 1094.) But our reading of the
operative complaint along with the additional facts
plaintiff now represents she can plead establishes a
reasonable possibility plaintiff can go beyond mere
allegations and present a specific wrongful foreclosure
theory on which she intends to rely, namely, that the
person who ostensibly executed the Assignment,
Graves, in fact had no authority to act on MERS’s
behalf; or if he did, he did not in fact execute the
Assignment because the notary, Castillo, who has
since apparently been convicted (not just indicted) for
misuse of her notary seal falsely verified his signature;
and that just months before the Assignment was
ostensibly executed there were competing claimants
on the beneficial interest in the Note.
PNMAC, however, has what appears at first blush
to be a forceful counterargument. PNMAC claims,
relying on the Garcia declaration that was among the
parties thereto may declare void but is not void in itself.
(Yvanova, supra, 62 Cal.4th at pp. 929-930.)

39a
bankruptcy documents the trial court judicially
noticed, that it was the holder of the Note at the time
foreclosure proceedings were instituted. If PNMAC
could properly and conclusively establish at this stage
of the proceedings that it did hold the Note at the
relevant time, that would be dispositive and preclude
a wrongful foreclosure cause of action because a deed
of trust automatically transfers with the Note it
secures—even without a separate assignment. (Civ.
Code, § 2936; Yvanova, supra, 62 Cal.4th at p. 927
[“The deed of trust, moreover, is inseparable from the
note it secures, and follows it even without a separate
assignment”].)
On appeal from the trial court’s demurrer ruling,
however, we are not in a position to accept PNMAC’s
counterargument for two reasons. First, the operative
complaint alleges (and it appears plaintiff would
persist in the allegation) that PNMAC was not the
holder of the Note. In many situations courts may take
judicial notice of the existence and facial contents of
publicly recorded documents and certain documents
filed in other judicial proceedings notwithstanding
contrary allegations leveled in a complaint. (Fontenot
v. Wells Fargo Bank, N.A., supra, 198 Cal.App.4th at
pp. 264-265 [court may take judicial notice of facts that
cannot reasonably be controverted].) The question of
who the holder of a note is, however, is disputable (at
least in this case), and we will not assume the truth of
facts asserted in the Garcia declaration to disregard
the complaint’s contrary allegations. (Yvanova, supra,
62 Cal.4th at p. 924, fn. 1 [taking judicial notice of a
recorded deed of trust and other documents but “not of
disputed or disputable facts stated therein”].) Further,
even if it were proper to take judicial notice of the
truth of the facts to which Garcia attested in her
declaration, there is nothing in the declaration or on

40a
the second allonge to the Note itself—which is
undated—that establishes when PNMAC came to be
its holder.6 Without a basis to conclude PNMAC was
the holder at the time it instituted foreclosure proceedings, we are convinced there remains a reasonable
possibility plaintiff can state a proper wrongful
foreclosure claim.
In our prior opinion, we also held the operative
complaint failed for insufficient allegations concerning
the prejudice element of a wrongful foreclosure claim
because she did not dispute that her husband had
ceased making payments on the Note and there was
no allegation, nor reason to believe, that CitiMortgage
(the holder of the Note prior to the asserted fraudulent
Assignment) would not have proceeded with foreclosure. To support our conclusion on that point, we
relied on Siliga v. Mortgage Electronic Registration
Systems, supra, 219 Cal.App.4th 75. PNMAC contends
there is no reasonable probability plaintiff could
amend her complaint to state a wrongful foreclosure
claim for this same reason.
We believe our prior prejudice rationale no longer
holds. Siliga is one of the cases Yvanova has now
expressly disapproved to the extent it held borrowers
lack standing to challenge an assignment of the deed
of trust as void. (Yvanova, supra, 62 Cal.4th at p. 939,
fn. 13.) Moreover, more than once in its opinion, our
Supreme Court casts doubt on the rationale on which
we relied to conclude there was an insufficient allega6

Not only is the second allonge to the Note undated, it is
executed on CitiMortgage’s behalf “[b]y and through its Attorney
in Fact PNMAC Capital Management LLC.” The parties have
not pointed to a document in the record before us memorializing
an agreement by CitiMortgage to have PNMAC Capital Management LLC act as its attorney in fact.

41a
tion of prejudice. (Id. at p. 941 [“Without discussing
Glaski, the Siliga court also held the borrower
plaintiffs failed to show any prejudice from, and
therefore lacked standing to challenge, the assignment
of their deed of trust to the foreclosing entity. . . . As
already explained, this prejudice analysis misses the
mark in the wrongful foreclosure context. When a
property has been sold at a trustee’s sale at the
direction of an entity with no legal authority to do so,
the borrower has suffered a cognizable injury”]; see
also, e.g., id. at p. 938 [“The logic of defendants’ noprejudice argument implies that anyone, even a
stranger to the debt, could declare a default and order
a trustee’s sale—and the borrower would be left with
no recourse because, after all, he or she owed the debt
to someone, though not to the foreclosing entity. This
would be an ‘odd result’ indeed”] (emphasis omitted).)
To be sure, Yvanova does state its holding is narrow,
and it does disclaim any intent to address the
substantive elements of the wrongful foreclosure tort.
But we cannot reconcile our prior lack-of-prejudice
holding—that plaintiff failed to allege another entity
would not have foreclosed—with Yvanova’s statements indicating no such allegation is necessary to
state a wrongful foreclosure claim. (See Sciarratta v.
U.S. Bank National Association 247 Cal.App.4th 552
[202 Cal.Rptr.3d 219, 221-222] [“[W]e conclude that a
homeowner who has been foreclosed on by one with no
right to do so—by those facts alone—sustains prejudice or harm sufficient to constitute a cause of action
for wrongful foreclosure”].) In addition, and in any
event, “[w]hatever merit [a] rule [requiring proof the
true beneficiary would not have foreclosed] would
have” on the ultimate question of liability (Yvanova,
supra, 62 Cal.4th at pp. 938-939), a plaintiff who
states a cause of action consistent with Yvanova is

42a
entitled to an opportunity to show through discovery
that the proper party to foreclose would not have
foreclosed, or at least would not have instituted
foreclosure proceedings as quickly as the actual
foreclosing party in fact did.
PNMAC additionally argues plaintiff cannot carry
her burden to show a reasonable possibility of
amending to state a valid wrongful foreclosure claim
because she cannot plead tender, i.e., that she paid or
offered to pay the amount due under the Note.
Yvanova, while expressly reserving decision on the
question of whether tender is required to set aside a
foreclosure sale based on a claim of wrongful
foreclosure, did cite cases holding there are exceptions
to the tender rule. (Yvanova, supra, 62 Cal.4th at p.
929, fn. 4 [citing cases and explaining “[t]ender has
been excused when, among other circumstances, the
plaintiff alleges the foreclosure deed is facially void, as
arguably is the case when the entity that initiated the
sale lacked authority to do so”]; see also, e.g., Pfeifer v.
Countrywide Home Loans, Inc. (2012) 211 Cal.App.4th
1250, 1280-1281 [citing cases]; Barrionuevo v. Chase
Bank, N.A. (N.D. Cal. 2012) 885 F.Supp.2d 964, 969.)
We believe there is a reasonable possibility plaintiff
can plead sufficient facts in a Third Amended Complaint to state a cause of action that would come within
one of the recognized exceptions—particularly if, as
plaintiff now contends, the complaint “would be
nothing more than an action for money damages,”
rather than an attempt to unwind the completed
foreclosure sale.
Next, PNMAC asserts plaintiff cannot state a valid
wrongful foreclosure claim because she did not sign
the Note and Yvanova is framed only in terms of
what a “borrower” may allege. This argument fails

43a
because plaintiff is named in the trust deed, which she
signed, as a “borrower” on the Note. We are convinced
Yvanova did not use the term borrower in any more
technical or restrictive sense than that.
Finally, we emphasize we do not hold plaintiff necessarily has a valid cause of action for wrongful foreclosure against PNMAC. Rather, consistent with the
well-established standard we apply at this stage of the
proceedings, we hold only that there is reasonable
possibility that she will be able to plead such a claim.
We therefore remand the matter to the trial court to
give her that opportunity, which if again contested via
demurrer by PNMAC, the trial court will decide on the
record before it.
D. Even in Light of Yvanova, the Trial Court
Correctly Sustained Trustee Corps’ Demurrer
Without Leave to Amend
“A deed of trust to real property acting as security
for a loan typically has three parties: the trustor
(borrower), the beneficiary (lender), and the trustee.
‘The trustee holds a power of sale. If the debtor
defaults on the loan, the beneficiary may demand that
the trustee conduct a nonjudicial foreclosure sale.’
(Biancalana v. T.D. Service Co. (2013) 56 Cal.4th 807,
813.) . . . . [¶] . . . [¶] The trustee of a deed of trust is
not a true trustee with fiduciary obligations, but acts
merely as an agent for the borrower-trustor and
lender-beneficiary. (Biancalana v. T.D. Service Co.,
supra, 56 Cal.4th at p. 819; Vournas v. Fidelity Nat.
Tit. Ins. Co. (1999) 73 Cal.App.4th 668, 677.) While it
is the trustee who formally initiates the nonjudicial
foreclosure, by recording first a notice of default and
then a notice of sale, the trustee may take these steps
only at the direction of the person or entity that
currently holds the note and the beneficial interest

44a
under the deed of trust—the original beneficiary or its
assignee—or that entity’s agent. (Civ. Code, § 2924,
subd. (a)(1) [notice of default may be filed for record
only by ‘[t]he trustee, mortgagee, or beneficiary’];
Kachlon v. Markowitz (2008) 168 Cal.App.4th 316, 334
[when borrower defaults on the debt, ‘the beneficiary
may declare a default and make a demand on the
trustee to commence foreclosure’]; Santens v. Los
Angeles Finance Co. (1949) 91 Cal.App.2d 197, 202
[only a person entitled to enforce the note can foreclose
on the deed of trust].)” (Yvanova, supra, 62 Cal.4th at
pp. 926-927.)
We have held it is reasonably possible plaintiff can
state a valid wrongful foreclosure cause of action
against PNMAC, and we remand to give her that
opportunity. She is not entitled, however, to leave to
amend as to Trustee Corps because we are convinced
there is no reasonable possibility she could state a
valid wrongful foreclosure cause of action against that
entity.
It is undisputed that Trustee Corps instituted
foreclosure proceedings by recording a notice of default
and a notice of sale. But given the circumscribed role
of a trustee in foreclosure proceedings, merely alleging
that Trustee Corps took these actions at PNMAC’s
behest is not a sufficient basis on which wrongful
foreclosure liability can be predicated. The apparent
basis for the operative complaint’s assertion of a
wrongful foreclosure cause of action against Trustee
Corps were allegations that PNMAC and Trustee
Corps, labeled by plaintiff the “conspiring defendants,”
joined together in some unspecified manner to form a
“conspiracy” and perpetrate “actual fraud” in the
assignment of the trust deed. (Operative Complaint
¶¶ 8, 25, 26, 40.) These, however, are mere conclusory

45a
allegations insufficient to allege conspiracy. (State of
California ex rel. Metz v. CCC Information Services,
Inc. (2007) 149 Cal.App.4th 402, 419; Nicholson v.
McClatchy Newspapers (1986) 177 Cal.App.3d 509,
521; see also Kachlon v. Markowitz, supra, 168
Cal.App.4th at pp. 333, 343 [actions taken by a
foreclosure trustee privileged under Civil Code, §§ 47
& 2924, subd. (d) unless malicious].) Plaintiff’s supplemental briefing offers nothing as to how she could
plead facts sufficient to state a claim against Trustee
Corps specifically, and no viable path for a wrongful
foreclosure cause of action against that entity is
otherwise apparent. We therefore uphold the trial
court’s decision to sustain the demurrer without leave
to amend as to Trustee Corps.
DISPOSITION
The judgment of dismissal is affirmed as to defendant Trustee Corps. The judgment of dismissal is
reversed as to defendant PNMAC and the matter
remanded for further proceedings consistent with this
opinion. Defendant Trustee Corps shall recover its
costs on appeal. Plaintiff and defendant PNMAC shall
bear their own costs on appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
BAKER, J.
We concur:
KRIEGLER, Acting P.J.
RAPHAEL, J.*
*

Judge of the Los Angeles Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.

